No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
DOMINIC LADALE WALTON
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage
prepaid, this 31st day of July, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 1,651
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
July 31, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 31, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

USA
DOMINIC LADALE WALTON
KEVIN JOEL PAGE
JASON DOUGLAS HAWKINS
FEDERAL PUBLIC DEFENDER’S OFFICE
NORTHERN DISTRICT OF TEXAS
525 S. GRIFFIN STREET
SUITE 629
DALLAS, TX 75202
214-767-2746
JOEL_PAGE@FD.ORG
JASON_HAWKINS@FD.ORG

